No. 19-

 

IN THE

Supreme Court of the United States

CANADA,
Petitioner,

Vv.

CYNTHIA L. MERLINI,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,900 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 6, 2020.

 

Colin Casey'Hogan
Wilson-Epes Printing Co., Inc.
